      FEDERAL TRADE COMMISSION

        OFFICE OF INSPECTOR GENERAL





SEMIANNUAL
               REPORT TO CONGRESS


             October 1, 2004 - March 31, 2005




                        Report #32
                               FEDE
                                     ~   TED STATESOF AMERICA
                                           TRADE COMMISSION
                                       WASHINGTON,D.C. 20580




The HonorableDeborahP. Majoras
ChainIlan
FederalTradeCommission
600 PennsylvaniaAvenue,N. W.
Washington,D.C. 20580

Dear ChainnanMajoras'

                                     t
         The attached report deSCribeS e Office of Inspector General's (OIG) activities for the
first half of fiscal year 2005 and is su mitted in accordancewith Section 5 of the Inspector
General Act of 1978, as amended.

        During this six-month reporti period ending March 31, 2005, the DIG issued an audit
of the FTC's FY 2004 financial state ents and a companion report to managementcontaining
financial-related findings and reco    ndations resulting from that audit. The DIG also issued
an Investigative Alert describing win rabilities in the agency's use of Federal Express mail
services. In addition to these audits d reviews, the DIG completed fieldwork on an audit
survey of the Do Not Call Registry an began fieldwork on (i) the FTC's implementation of the
Federal Information Security Manag ent Act for FY 2005 and (ii) an inspection of the agency's
travel and purchasecard programs.

        In addition, the DIG processed~ 31 complaints/allegations of possible wrongdoing during
the period, opened five new investigat ons into wrongdoing and closed five investigations. We
reported the results of these closed inv stigations to management for ultimate disposition.

       As in the past, managementh= beenresponsive in attempting to implement all DIG
recommendations. I appreciatemanag ment's support and I look forward to working with you in
our ongoing efforts to promote econo y and efficiency in agencyprograms.
                                                                                                                                                             T i\:BLE OF CONTENTS




 TRANSMITTAL                                                                                                                                                                                                                                                         Page
 INTRODUCTION                                                                                                                                  ,                                                                                                                     1

AUDIT   Planned
        Audits
         Completed
           Summary     ACTIVITIES   in   Audits    Which
                                                   Which
                                                      of   Audits   Findings    Field
                                                                                 Fieldwork               for   Work            Review     is       is   In   C       rogress
                                                                                                                                                                      mplete Issued               During              "         the      Current     Period
                                                                                                                                                                                                                                                                     1
                                                                                                                                                                                                                                                                     1
                                                                                                                                                                                                                                                                     2
                                                                                                                                                                                                                                                                     4
                                                                                                                                                                                                                                                                     5
                                                                                                                                                                                                                                                                     6

INVESTIGATIVE
    Matters
    Investigative
    Investigations Referred Summary
                             Closed
                                ACTIVITIES
                                  for  Prosecution                                                                                                                                                                                                       ,           7
                                                                                                                                                                                                                                                                     8
                                                                                                                                                                                                                                                                     8
                                                                                                                                                                                                                                                                     10

OTHER   Access
        Audit
        Review
         Internet
         Significant
        Contacting       ACTNITIES
                          Resolution
                              to of
                                 Access Infomlation
                                           Legislation
                                              ManagementOffice
                                            the                                                     of                       Decision
                                                                                                                           Inspector                                  General
                                                                                                                                                                                                                                                                     10
                                                                                                                                                                                                                                                                     10
                                                                                                                                                                                                                                                                     10
                                                                                                                                                                                                                                                                     10
                                                                                                                                                                                                                                                                     11
                                                                                                                                                                                                                                                                     11
                                                                                                                                                                                                                                                                     11

TABLES
        Table
        Table              I:ill:
                           II:                    Summary
                                                  mspector
                                                   Inspector                                 General
                                                                                             General
                                                                                             of      Inspector                           Issued
                                                                                                                                         Issued                  G     Reports
                                                                                                                                                                       Reports
                                                                                                                                                                       neral               Reporting
                                                                                                                                                                                                  With
                                                                                                                                                                                                  With                        Questioned
                                                                                                                                                                                                                              Recommendations
                                                                                                                                                                                                                                    Requirements   Costs      That   12
                                                                                                                                                                                                                                                                     13

                                                  Funds                        Be             Put                     To                Better                                  se    .""""".""..'."""""..'.'.""'.".'..""'"                                          14
                                      INTRODUCTION


        The Federal Trade Commissio (FTC) seeksto assurethat the nation's markets are
competitive, efficient and free from due restrictions. The FTC also seeksto improve the
operation of the marketplace by endin unfair and deceptive practices, with emphasis on those
practices that might unreasonablyres .ct or inhibit the free exercise of informed choice by
consumers. The FTC relies on econo ic analysis to support its law enforcement efforts and to
contribute to the economic policy deli erations of Congress,the Executive Branch and the
public.

                                  1
        To aid the FTC in accomPliShi g its consumer protection and antitrust missions, the
Office of Inspector General (alG) w provided five work years and a budget of $905,700 for
fiscal year 2005.


                                    ~UDIT ACTIVITIES


        During this semiannual period, the DIG issued an audit of the FTC's FY 2004 financial
statements and a companion report to anagementcontaining financial-related findings and
recommendations resulting from the a dit. The OIG also issued an Investigative Alert describing
vulnerabilities in the agency's use ofF deral Express mail services. In addition to these
completed audits and reviews, the 01 completed fieldwork on selectaspectsof our review of
the Do Not Call Registry. Finally, we egan fieldwork on (i) the FTC's implementation of the
Federal Information Security Manage ent Act for FY 2005 and (ii) an inspection of the agency's
travel and purchase card programs. D tailed information regarding theseaudits and reviews is
provided below.


                                      IComp:letedi\udits

Audit Renort Number                                  SubOectof Audit
          AR 05-062                  udit of the Federal Trade Commission's
                                       ancial Statements for the Fiscal Year Ending
                                    S ptember 30, 2004

          AR 05-062A                ManagementLetter to the FY 2004Financial
                                    statements

          IA 05-010                 I~vestigativeAlert: Internal Controls to PreventMisuse
                                    o( FedEx Servicesare Lacking
          In AR 05-062, Audit of the Fede al Trade Commission's Financial Statementsfor the
 Fiscal Year Ending September30, 2004 the objective was to detennine whether the agency's
 financial statementspresent fairly the fi ancial position of the agency. The statementsaudited
 were the Balance Sheetsas of Septembe 30,2004 and 2003 and the related Statementsof Net
 Cost, Statementsof Changes in Net Posi ion, Statementsof Budgetary Resources,Statementsof
 Financing and Statementsof Custodial ctivity for the years then ended. This was the eighth
 consecutive year that the FTC prepared nancial statementsfor audit. The agencyreceived an
 unqualified opinion, the highest opinion 'ven by independentauditors.

          The FY 2004 audited statements rovide insight into the mission and operations of the
 Federal Trade Commission. The FTC h d total assetsof$252.9 million and $399.9 million as of
  September 30,2004 and 2003, respectiv ly. Approximately $145.0 million and $304.6 million
 of the 2004 and 2003 assets,respectively were funds collected or to be collected and distributed
 through the consumer redressprogram, der the agency's consumer protection mission. In
 addition, $41.4 million in fiscal year 200 and $41.2 million in fiscal year 2003 were held in a
 divestiture fund and will be subsequentlydisbursed per the tenns of the divestiture agreement
 under the agency's maintaining competiti n mission. In addition, $66.5 million in fiscal year
 2004 and $54.1 million in fiscal year 200 in assetsrepresentfund balances in appropriated
 accounts, account receivables and net cap'tal assets.

         Revenue and financing sourcesre eived in fiscal years 2004 and 2003 totaled $193.4 and
 $184.4 million, respectively. Exchange r venue, classified as earnedrevenue on the financial
statements, was received from three sour es: (i) the collection of premerger notification filing
fees (ii) Do Not Call (DNC) user fees and (iii) reimbursementsreceived for services provided to
other government agencies. Financing w received through direct appropriations, appropriation
transfers and imputed for costs absorbed y others.

         Exchange revenue totaled $98.4 m.llion and $62.4 million for fiscal years 2004 and 2003,
 respectively. The primary sourceof exch ge revenue collected, $83.6 million in fiscal year
 2004 and $56.0 million in fiscal year 200 , was premerger filing fees. The FTC collects a filing
 fee from eachbusiness entity that files a   tification and Report Form as required by the Hart-
 Scott-Rodino (HSR) Anti-Trust Improve ent Act. Qualifying mergers with a transaction amount
 over $50 million in total assetsare charge a filing fee. The fee is based on a three-tiered
structure: $45,000, $125,000, and $280,00 , depending upon the combined assetsof the merger
transaction. The fee is divided equally be een the FTC and the Antitrust Division of the
Department of Justice (DOJ). The numbe of filings increasedby 380 over the previous year
with 1,394 and 1,014 recorded in fiscal ye s 2004 and 2003, respectively. Premergerfiling fees
represented43.2 percent and 30.4 percent fthe total revenuesourcesto the agency in fiscal
years 2004 and 2003, respectively.




                                               2
         The second largest source of changerevenuewas Do Not Call fees. Fiscal year 2004
was the first full year in which DNC eeswere collected. In September2003, the FTC began
collecting fees associatedwith the im lementation and enforcement of the national Do Not Call
 Registry sufficient to cover registry c sts. Telemarketers under the FTC's jurisdiction are
required to pay a user fee and downlo d from the DNC databasea list of consumers' telephone
numbers who do not wish to receive aIls from telemarketers.Feesare based on the number of
area codesdownloaded. The agency ollected $14.0 million in fees in fiscal year 2004 and $5.2
million in fiscal year 2003, representi g 7.2 percent and 2.9 percent of the total financing
sources, respectively. Earnings from r imbursable agreementswith other federal agencies
represented less than 1 percent of tota earnings in both fiscal years.

         In addition to exchange reven e, other financing sourceswere realized through a direct
appropriation from the General Fund f the Treasuryand other non-expenditure transfers in the
amount of$88.1 million in fiscal year 2004 and $115.6 million in fiscal year 2003. The
budgetary authority appropriated from the General Fund was reduced by the amount of offsetting
collections (HSR and DNC fees) recei ed during the year to arrive at the final amount of
resources appropriated from the Gene al Fund. In fiscal years 2004 and 2003, the amount of
direct appropriations and transfers rep esented45.6 percent and 62.7 percent of total funding
sources received.

        The gross cost of operations fo 2004 fiscal year was $185.9 million and representsan
increase of 6.4 percent over the fiscal ear 2003 gross cost of operations which was $174.7
million. During 2004, expensesfor sa aries and related benefits totaled $121.0 million or 65.1
percent of the gross cost of operations. Lease spacerental expensewas $17.1 million or 9.2
percent and the remaining $47.8 milli n, or 25.7 percent, included travel, facility maintenance
and equipment rental, utilities, impute benefit costs, depreciation and other items. These costs
supported 1,057 staff-years employed fulfilling the FTC's missions.

         Agency enforcement activities        ften generatesubstantial funds which are used, to the
 extent possible, to provide redressto c      nsumerswho have been injured by deceptive practices,
or, as with civil penalties, that are tran   ferred to the U.S. Treasury as non-exchangerevenue.
These activities are reported on the St       ement of Custodial Activity, which is a required financial
statement for those federal agencies th      t collect non-exchangerevenues(e.g., taxes, duties, fines,
and penalties) for the General Fund of       he Treasury, a trust fund, or other recipient entities. In FY
2004, for example, the agencyobtaine          court-orderedjudgments againstdefendants in FTC cases
totaling $240 million.

        During the financial statement~ Udit, the DIG identified deficiencies in internal control
that were not considered reportable co ditions (that is, they did not rise to a level of seriousness
to be reported in the auditor's opinion) Rather, the DIG communicated these findings to
management in a letter (Management etter to the FY 2004 Financial Statements(AR 05-062A)).




                                                     3
        The objective of the managem nt letter is to bring to management's attention financial
and/or internal control weaknessesan to make recommendations for corrective action. The
audit also follows up on past recomm ndations made in the prior year's managementletter. For
example, this year's managementlett r contains three new findings and the status (follow-up) of
five prior-year findings. One of the n w findings identified inefficient cash management
practices in the agency's consumerre essprogram resulting in lost interest income exceeding
$100,000. The OIG recommendedi roved proceduresto manage funds collected for redress.

                                     ~t: Internal Controls to Prevent Misuse of FedEx Services
       In IA OS-OIl, Investigative Af,
are Lacking, the DIG identified vulne    abilities in the use of the agency's Federal Express
(FedEx) mail delivery service that en     led an employeeto accumulate approximately $2,000 in
personal charges over several months       hich were paid by the FTC.

        The OIG found that there wer no controls in place to prevent or detectprogram abuse.
For example, employee supervisors d d not approve FedEx usagebefore shipment occurred, nor
did they review invoices prior to pa ent. Also, the agencydid not control FedEx account
numbers, the equivalent of a credit c    for FedEx usage. Had controls been in place in at least
one of these three areas, it is doubtful at this employeecould have misused these services to the
extent and duration that he did.

        To correct the control weaknef es, the DIG recommendedthat supervisorsplaya role in
the review process to deter program a use. Specifically, managementshould implement
procedures requiring supervisory revi    ofFedEx invoices and work with FedEx to develop an
invoice format to facilitate this review

       The OIG discussedthe report t ith program managersin the Administrative Services
Office prior to its release. Manageme t agreeswith the OIG recommendationand has already
taken stepsto implement it.


                           Audits in "*hich Field Work is Comnlete

Audit Renort Number                      I              Subiect   of Review


       AR 05-XXX                         urvey of Do-Not Call Registry RemovalProcedures
                                       he DIG learned of some consumersbeing inadvertently
                                     r moved from the Do-Not-Call Registry without their
                                        owledge or consent.DNC officials informed the DIG
                                     t at, on occasion, when a caller makes changesto his/her
                                     p one service, the local companies might mistakenly
                                     i entify suchrequestsas a disconnect. In turn, when the
                                     a ency's contractor routinely scrubsthe registry, it also
                                     i entifies suchnumbers as disconnectsand removes them
                                       om the DNC registry.

                                                 4
                                S e objectivesof this OIG surveyareto assesswhether
                                  equateinternalcontrolsare in placeand appropriately
                                 orking to guardagainstanyunintendedremovalof
                                 onsumersfrom the DNC registry.


                      Audits in Which Field Work is In Pro2ress

Audit ReRort Number             I                  Subject of Review

      ARO5-
         xxx                      rogram Inspection: Controls over the use of Agency
                                  urchase and Travel Cards Recentreports by the
                                    vernment Accountability Office and Inspectors General,
                                    well as congressionalhearings and press reports, have
                                 nce again raised serious concernsregarding the adequacy
                                 finternal control systemsthat monitor the use of the more
                                  an 2.5 million Government credit cards in circulation. To
                                   te, millions of dollars of fraudulent and unauthorized
                                 xpenditures have beenmade using thesecards. While the
                                 urchaseand travel card programs have increased
                                     ciency in the federal acquisition process, they have also
                                c eated large, new opportunities for fraud and abuse.

                                   e overall objective of this audit will be to ensure that the
                                c edit card programs have effective internal controls to
                                p event abuses.The OIG will also perfonn transaction tests
                                t identify (i) potentially fraudulent, improper and abusive
                                  es of purchaseand travel cards and (ii) any patterns of
                                i proper cardholder transactions, such as purchasesof
                                p ohibited items.


  ARO5-
     xxx                        ffiView of the Federal Trade   Commission
                                I   plementation of the Federal Information Security
                                   anagement Act for Fiscal Year 2005 The Federal
                                  formation Security ManagementAct of 2002 (FISMA)
                                re uires an independentassessmentof federal agency
                                in ormation security programs and practices to determine
                                th ir effectiveness. The OIG will evaluate the adequacyof
                                th FTC's computer security program and practices for its
                                m ~or systems. This year, the OIG will again focus its
                                re iew on the FTC's Plan ofAction and Milestones at the
                                ti e they are submitted to OMB to determine the extent to
                                w ich the agencyhas implemented previously agreed-to

                                           5
                     IG and otherinternally-identifiedrecommendations.This
                     ill enablethe DIG to providemore timely feedbackto
                      anagementon the resultsof its effortsto address
                     eaknesses.In addition,the DIG will considerotherwell
                    ~own vulnerabilities,includingaccesscontrolsto FTC
                    ~atabasesby programandIT staff.


                            Planned Audits

@dit ReRortNumber       I                                       Subject          of Review


  ARO5-
     xxx            ~udit         of    the         FTC's            Technical                Assistance             Activities

                    ~nded               by     the       u.s.         Agency            for     International

                    t       velopment
                              sition     economies
                                                 For             overthat a are
                                                                            decade,
                                                                                 committed
                                                                                         the             FTC to     has
                                                                                                                    marketassisted
                                                                                                                                 and



                         ommerciallaw                     refornls.              With         funding          principally        from

                    *e      USAID,               about          30    nations           have        received          technical

                    ¥sistance                with      the       development                   of    their      competition            laws.



                    the Foreign Operations, Export Financing and Related
                    Programs Appropriations Act of 2003 provides USAID
                    ~ ith authority to make such fund transfers: In addition, the
                      ct contains an audit provision directed to Inspectors
                      eneral for recipient agencies. Specifically, Sec. 509(d)
                    r~quires OIG's to perform periodic program and financial
                    aUditsof the use of USAID funds.

                       keeping with this mandate,the OIG audited the program
                    i FY 2003. The second audit will again seekto determine
                      hether the costs charged againstUSAID funds (i) are
                    s pported by approved documentation and payroll
                    a locations and that these allocations appear proper and
                    r asonableand (ii) conform to the requirements stipulated
                    b USAID in its Memorandum of Agreement and
                    r imbursable work agreements.

     ARO5-
        xxx           eview of Annual Performance Measures Under the
                      overnment Performance and Results Act Under the
                      ovemrnent Perfonnance and Results Act of 1993
                    ( PRA), virtually every federal agencyis required to
                    d velop a five-year strategic plan, an annual perfonnance
                    p an and perfonnance measuresto assesshow well the
                    a ency is meeting its perfonnance objectives. Like many

                                             6
                                      t her agencies,the FTC strives to capture all of the
                                       c~iv!ties that FTC staff perfonn to achieve the agency's
                                        Isslon.

                                          an annual basis, the aIG reviews the agency's
                                       erfonnance measuresto detennine whether systemsare in
                                       lace to accuratelycapture this infonnation for external
                                       eporting. The aIG plans to expand the scope of the
                                       equired review in a separateeffort to look at whether the
                                        easures(i) are relevant to the agency's missions; (ii)
                                       over the work of all direct enforcement staff; and (iii) are
                                       orrectly matched to current year budgetary resources.


                               INVE~TIGATIVE ACTIVITIES


                                    $ .zed by the IG Act to receive and investigate allegations of
        The Inspector General is aUth
fraud, waste and abuseoccurring wit.    FTC programs and operations. Matters of possible
wrongdoing are referred to the OIG in e fonn of allegations or complaints from a variety of
sources, including FTC employees,ot er government agenciesand the general public.

        Reported incidents of possible aud, waste and abusecan give rise to administrative,
civil or criminal investigations. OIG' vestigations might also be initiated based on the
possibility of wrongdoing by firms or i dividuals when there is an indication that they are or
were involved in activities intended to improperly affect the outcome of particular agency
enforcement actions. Becausethis kin of wrongdoing strikes at the integrity of the FTC's
consumer protection and antitrust law nforcement missions, the OIG places a high priority on
investigating it.

        In conducting criminal investig tions during the past several years, the OIG has sought
assistance from, and worked jointly wi h, other law enforcementagencies,including other DIG's,
the Federal Bureau of Investigation (F I), the U.S. Postal Inspection Service, the U.S. Secret
Service, the U.S. Marshal's Service, th Internal RevenueService, Capitol Police, Federal
Protective Service as well as state age cies and local police departments.



                                    In&esti2ativeSummary

        During this reporting period, th OIG received 131 complaints/allegations of possible
wrongdoing. Of the 131 complaints, 9 involved issuesthat fall under the jurisdiction of FTC
program components (identity theft, cr dit repair, etc.). Consequently,the OIG referred these
matters to the appropriate FTC compo ent for disposition. Another 13 complaints were referred
to other government and/or law enforc ment agenciesfor ultimate disposition.

                                                7
        Of the remaining 20 complai4ts, 13 were closed without any action, one resulted in a
preliminary investigation and one pel)tainedto an allegation of waste that will be included in the
OIG audit plan. The OIG opened in'1estigationson the five remaining complaints.

    .Following   is a summary ofth~ DIG's investigative activities for the six-month period
endIng March 31, 2005:             l

               Cases
               Cases   pending
                         Less:
                          Plus:   New as
                                  Casesas   of
                                            ofca~esc.osed
                                                     O~/31/05
                                                      ~/30/04                6
                                                                             +5
                                                                             {.1}
                                                                              6


                                                      Investi2ationsClosed

        The following investigations~ere closedduringthis reportingperiod:

               The OIG received info~ation that an agencystaff attorney might be abusing the
               workman's compensatipnprogram by performing legal work for a former
               employer on the days t11eemployee was not working at the FTC. During the
               investigation, the OIG l~amed that the FTC employee was matTied to the former
               employer, a criminal delfenseattorney, and that the FTC employee had failed to
               disclose this relationship during negotiations for employment with the FTC.
               Management's recomrnbndationto hire the attorney at a specific grade and step
               level was based, in part f' upon a competing offer letter from the former employer
               (and, unknown to mana ement, spouse)of the prospective employee. For several
               years, the employee too stepsto conceal the marital relationship from
               supervisors. The OIG crnsulted a prosecutor and received an informal declination
               to prosecute the matter. IWe referred the matter to managementfor disciplinary
               action and possible refetal of the misconduct to the appropriate state bar.

               The OIG investigated al'egations of FTC impersonation received from a law firm
               whose corporate client r~ceived two E-mail messagesthat were sentusing a
               spoofed E-mail address,[purporting to be from the FTC. The messagesimplied
               that the corporate recipient might be in violation of antitrust statutes. The OIG
               issued a subpoenato obt~n subscriber information for the spoofed E-mail
               messagesand contacted the individual assignedto the computer internet protocol
               (IF) addressfrom which the E-mail originated. The OIG informed the suspected
               author of the criminal s~ctions associatedwith posing as a federal official,
               including using indicia 1 an official nature such as an FTC E-mail address. The
               OIG also informed him at if we learnedof such conduct in the future, a referral
               to a prosecutor would be considered. Thereafter, we closed the case.


                                                                8
               The OIG learnedthat~ employeeallegedlyviolatedthe criminal financial
               conflicts of interestst~tute(18 V.S.C. § 208). The DesignatedAgencyEthics
               Official referredthe matterto the OIG afterthe employeediscoveredthe violation
               following training he ~1ec~ived onthe financial conflicts statute. The employee
               recusedhimself from ~her personalandsubstantialparticipationin the
               particularmatterthatcreatedthe conflict. He furtherindicatedhis intentto divest
               his financial interestt1iatcreatedthe conflict. We consultedwith a prosecutorand
               receivedan informal d~lination to prosecute.The OIG sentthe matterto
               managementfor referrfl to the Office of GovernmentEthics,asis statutorily
               requiredfor violationsiofthe financialconflicts statute.Following this referral,
               we closedthe investig~tion.

               Another investigation fpcused on alleged theft of funds from the agency's non-
               profit day care center, "hich receives some agency funds. The OIG conducted
               several interviews and tleteffi1ined that the suspectedperpetrator is not an agency
               employee. We referred the matter to the Federal Protective Service, which had an
               ongoing investigation rflating to the theft. We shared our investigative file with
               the assignedFPS crimi~al investigators who could compel the suspectto respond
               to questions. Following this referral, we closed our investigation.

               The OIG received sepaIJate   referrals from law enforcement authorities in two
               different municipalitiesJ After opening an investigation and issuing subpoenas,
               we learned that the alle~ed criminal violations were also the subject of a separate
               ongoing criminal investfgation that is nearing completion. To avoid duplication
               of effort, we shared our linvestigative findings with the other investigating body
               and closed the OIG inv~stigation following referral.

         We also closed a preliminary inrorestigation
                                                    into a matter that was referred to the DIG by
management. Fraudulent chargeshad      l eenposted  to the FTC's telephone account since July
2004 by an anonymous individual. Th DIG contactedthe telecommunications service provider
that billed the charges. Following the arTier's internal research,the DIG received assurances
that credits totaling approximately $30 would be issued to the agency. We took no further
action on this preliminary investigationj


                               Matters ,Referred for Prosecution

      During this reporting period the 'pIG did not refer any casesto a federal prosecutor.
However, the DIG consulted with a pro$ecutor on two investigations, as described above.




                                                9
                                     OTHER ACTIVITIES


                               Si~nificant Mana!!:ernent Decisions

         Section 5(a)(12) of the Inspector General Act requires that if the IG disagreeswith any
significant managementdecision, such pisagreementmust be reported in the semiannual report.
Further, Section 5(a)(11) of the Act requires that any decision by managementto changea
significant resolved audit finding must also be disclosed in the semiannualreport. For this
reporting period there were no significant final managementdecisions made on which the IG
disagreed and managementdid not revi~e any earlier decision on an DIG audit recommendation.


                                     Accessto Information

        The IG is to be provided with ready accessto all agencyrecords, information, or
assistance when conducting an investig,tion or audit. Section 6(b)(2) of the IG Act requires the
IG to report to the agencyhead, without delay, if the IG believes that accessto required
inforD1ation, records or assistancehas been unreasonablyrefused, or otherwise has not been
provided. A summary of each report submitted to the agencyhead in compliance with Section
6(b)(2) must be provided in the semianrtualreport in accordancewith Section 5(a)(5) of the Act.

        During this reporting period, the IGIG did not encounter anyproblems in obtaining
assistance or accessto agencyrecords. (:onsequently, no report was issued by the IG to the
agency head in accordancewith Section16(b)(2) of the IG Act.                             ,


                                        Internet Access

        The DIG can be accessedvia the 'world wide web at: httn://www.ftc.gov/oig. A visitor to
the DIG home page can download recen~(1996-2004) DIG semiannualreports to Congress,the
FY 1998 -2004 financial statementau~ts and other program and perfonnance audits issued
beginning in FY 1999. A list of audit rewortsissued prior to FY 1999 can also be ordered via an
e-mail link to the DIG. In addition to thi~ infonnation resource aboutthe DIG, visitors are also
provided a link to other federal organiza~ionsand office of inspectorsgeneral.


                                       Audit Resolution

        As of the end of this reporting penod, all DIG audit recommendationsfor reports issued
in prior periods have beenresolved. Thaf is, managementand the OIG have reached agreement
on what actions need to be taken.




                                               10
                                      Review of Le2islation

         Section 4(a)(2) of the IG Act ~uthorizes the IG to review and comment on proposed
legislation or regulations relating to ~e agencyor, upon request, affecting the operations of the
DIG. During this reporting period, t~e DIG reviewed no legislation.


                           Contactina the Office of Insnector General


        Employees and the public are Fncouragedto contact the OIG regarding any incidents of
possible fraud, waste, or abuseoccUlTingwithin FTC programs and operations. The OIG
telephone number is (202) 326-2800. :To report suspectedwrongdoing, employeesand the public
should call the OIG's investigator directly on (202) 326-2618. A confidential or anonymous
messagecan be left 24 hours a day. Complaints or allegations of fraud, waste or abusecan also
be emailed directly to chogye@ftc,gov. OIG mail should be addressedto:

                              Federal :TradeCommission
                              Office of Inspector General
                              Room ~J-III0
                              600 Penhsylvania Avenue, N. W.
                              Washin~on, D.C. 20580




                                                 11
                                  i     TABLE      I
                   SUMMARY OF INSPECTOR GENERAL
                      REPORTING REQUIREMENTS

    IG Act
  Reference                  Re~ortin2 ReQuirement                             Pa2e(s)
Section 4(a)(2)    Review of legislation and regulations                         11

Section 5(a)(1)    Significantproblems,abusesand deficiencies                    3-4

Section 5(a)(2)    Recommendations with respectto significant
                   problems,abusesanddeficiencies                                4

Section 5(a)(3)    Prior significant recommendationson which
                   corrective actidns have not been made

Section 5(a)(4)    Mattersreferredto prosecutiveauthorities                      10

Section 5(a)(5)    Summary of instanceswhere infonnation was refused             10

Section 5(a)(6)    List of audit reports by subject matter, showing dollar
                   value of questiqned costs and funds put to better use         13, 14

Section 5(a)(7)    Summaryof eaqhparticularlysignificantreport                   2-4

Section 5(a)(8)    Statisticaltablesshowingnumberof reportsand
                   dollar value of questionedcosts                               13

Section5(a)(9)     Statistical tables showing number of reports and dollar
                   value of recOmnllendationsthat funds be put to better use     14

Section 5(a)(lO)   Summary of each audit issuedbefore this reporting
                   period for whicli no managementdecision was made
                   by the end of th~ reporting period                            13,14

Section5(a)(11)    Significantrevisedmanagement
                                             decisions                           10

Section 5(a)(12)   Significant managementdecisions with which
                   the inspector general disagrees                               10




                                            12
                                         :
                                       TABLE II
                         INSPECTORI GENERAL ISSUED REPORTS
                               WITIt QUESTIONED COSTS



                                                       Number             Dollar Valoe

                                                                   Questioned     Unsupported
                                                                     Costs          Costs

       A.   For which no managementdecision has
            beenmade by the commencemyntof the
            reporting period          I                      Jl       -1L          (     0   ]

            Which were issued during the reporting
            period                           I              ~         -1L          (     0   ]

            Subtotals (A + B)                                         ~            (     0   ]

       c.   For which a managementdecision was
            made during the reporting period                ~         -1L          (     0   ]

            (i) dollar value of disallowed costS;           ~         ~            (     0   ]

            (ii) dollar value of cost not disallowed        ~         -1L          (     0   ]

       D.   For which no managementdecision was
            made by the end of the reporting period         -.0-      ~            (     0   ]


            Reportsfor which no managem~nt
            decisionwasmadewithin six m9nthsof
            issuance                                                  -.!1-        (     0   ]




                                                       13




B.
J)
..Q.
                                             TABLE III

               INSPECTOR (l;ENERAL ISSUED REPORTS
     WITH RECOMMENDATIO~S    THAT FUNDS BE PUT TO BETTER USE


                                                               Number   Dollar Value


     A.   For which no management decisionhasbeenmade
          by the commencementof the reportingperiod               0                0


     B    Which were issued during this reporting period          1          118,000

                                         t
          For which a managementdeCisi n was made during
          the reporting period                                    1          118,000

          (i) dollar value of recommen~ationsthat were
          agreedto by management
           basedon proposed managementaction
           basedon proposed legislative action
          (ii) dollar value of recommen~ations that were
          Dot agreed to by management I                           0            1 0
                                                           ~                   I"".


     D.   For which no managementdeci$ion has been made
          by the end of the reporting peri~d                      0                0

          Reportsfor which no managementdecisionwas
          madewithin six monthsof issu~ce                         0                0
                                                                        '.~-l---




                                                  14




c.
